4
[N

C@OCKLE

2311 Douglas Street Lega ] Brie f E-Mail Address:
Omaha, Nebraska 68102-1214 8 Est. 19 4 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 Ne. 19-71

FNU Tanzin, ET AL.,
Petitioners, v.
Muhammad Tanvir, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 13th day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE FREEDOM FROM RELIGION FOUNDATION
AND AMERICAN HUMANIST ASSOCIATION AS AMICI CURIAE IN SUPPORT OF NEITHER PARTY in the above
entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the
following:

SEE ATTACHED

To be filed for:
PATRICK C. ELLIOTT, ESQ. MARCI A. HAMILTON, ESQ.
Counsel of Record 36 Timber Knoll Drive
SAMUEL T. GROVER, ESQ. Washington Crossing, PA 18977
FREEDOM FROM RELIGION FOUNDATION (215) 353-8984
P.O. Box 750 hamilton.marci@gmail.com
Madison, WI53701 Counsel for Amici Curiae
(608) 256-8900
pelliott@ffrf.org

Subscribed and sworn to before me this 13th day of January, 2020.
T am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska : Le Qudraw-
My Commission Expires Nov 24, 2020 é .

Notary Public Affiant 39346

 
Noel J. Francisco

Counsel of Record

Solicitor General of the United States
US. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
supremectbriefs@usdoj.gov

(202) 514-2217

Counsel for Petitioners

Ramzi Kassem

Counsel of Record

Main Street Legal Services, Inc.

City University of New York School of Law
2 Court Square

Long Island City, NY 11101
ramzi.kassem@law.cuny.edu

(718) 340-4558

. Counsel for Respondents
